December 16, 2009

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Greater South Carolina District Financial Risk Audit
         (Report Number FF-AR-10-049)

This report presents the results of our audit of financial risk in the Greater South Carolina
District (Project Number 09BD023FF000). This audit was self-initiated and addresses
financial risk based on factors evaluated by the U.S. Postal Service Office of Inspector
General (OIG) Performance and Results Information System model. The objective of our
audit was to determine whether internal controls over retail and unit stamp stock, cash
and customer account management, local purchases, and miscellaneous expenses and
refunds were in place and effective at selected sites. See Appendix A for additional
information about this audit.

Conclusion

Based on the transactions we reviewed, internal controls over customer account
management (master trust), local purchases, and refunds were generally in place and
effective. However, we found internal control and compliance issues related to stamp
stock, miscellaneous expenses, and cash management. We attributed the internal
control deficiencies to insufficient oversight of the managers or supervisors responsible
for implementing financial internal controls at the units we audited. We identified
$296,590 in nonmonetary impact for accountable items at risk.1 See Appendix D for
further information on the nonmonetary impact.

Management Oversight of Internal Control Procedures Needs Improvement

We found internal control issues related to maintaining retail floor stock balances,
researching and documenting miscellaneous expenses (financial adjustments),
maintaining a detailed record or system-generated log for each financial adjustment, and
conducting accountability examinations of the unit cash reserve. These conditions
represent four of the 16 specific key internal controls we tested.



1
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.
Greater South Carolina District                                                               FF-AR-10-049
 Financial Risk Audit


In general, we attributed the deficiencies to insufficient oversight of financial procedures
at the post offices, stations, and branches. Local managers or supervisors often stated
they tried to complete all duties; however, factors such as turnover in key personnel,
managing multiple units, and other work-related duties such as delivery limited time
spent completing their financial responsibilities. The U.S. Postal Service has an
increased risk that losses could occur and go undetected and that financial records could
be misstated when units do not follow prescribed financial accountability procedures.

In June 2009, district management implemented stronger district-wide monitoring of
individual units. In spite of the deficiencies noted previously, we recognize that the
district has initiated these actions, and it appears they are beginning to effect corrective
action.2 Units are now improving compliance over accountability controls, financial
accounting and reporting of transactions, and local disbursement and refunds. For
example, there were no significant or systemic problems in conducting accountability
examinations over the stamp stock, managing and collecting amounts due from
employees who had received salary advances, and following payment methods and
maintaining documentation for expense transactions with the daily financial reports.

However, management could expand and enhance the effectiveness of this monitoring
program to include documenting corrective actions taken when high-risk offices are
identified. The district management’s involvement is a key compensating control that is
critical in the overall environment to reinforce the importance of compliance with financial
and managerial controls. See Appendix B for our detailed analysis of the findings.
Appendix C presents the results of our internal controls tested at each of the nine units.

We recommend the vice president, Capital Metro Area Operations, direct the district
manager, Greater South Carolina District, to:

1. Develop and implement an action plan with milestones that will address the control
   deficiencies noted.

2. Consider expanding the district’s monitoring of unit financial control activities to
   include a tracking mechanism documenting the corrective action taken for units that
   are not in compliance.

Management’s Comments

Management agreed with our findings and recommendations and stated in their
response that an action plan addressing noted deficiencies was initiated. This plan
specifically addressed deficiencies, plans, and milestones that have been completed at
the specified units. In addition, district managers have expanded their monitoring
activities of units by using increased intervals of monitoring units’ activities either weekly,
monthly, or bi-monthly depending on the type of financial control. Effective December

2
 As discussed in Appendix A, we examined transactions generated for the October 2008 through June 2009 reporting
periods. As such, the deficiencies identified occurred before the June 2009 actions.




                                                       2
Greater South Carolina District                                             FF-AR-10-049
 Financial Risk Audit


31, 2009, the district finance office will provide monthly noncompliance reports to the
manager, Post Office Operations, senior plant manager, and the district manager for
distribution to the appropriate managers requiring a response to corrective action taken.
As mandated by the Capital Metro Area Office, district officials will complete a follow-up
review to this response at these post offices by February 4, 2010, to ensure compliance
with the recommendations. See Appendix E for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations, and
management’s corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, director, Field
Financial – Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Steven A. Darragh
    Nicholas L. Rinaldo
    Sonny S. Hermes
    Stephen J, Nickerson
    Steven R. Phelps
    Sally K Haring




                                             3
Greater South Carolina District                                                                 FF-AR-10-049
 Financial Risk Audit


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the Postal Service recognizes revenue from
operations. The term “post offices” includes main offices, stations, and branches. The
postmasters or local managers are responsible for collecting all receipts to which the
offices are entitled, accounting for all funds entrusted to them, and ensuring the units
meet all revenue and accounting objectives.

The Greater South Carolina District is in the Capital Metro Area and includes
approximately 326 post offices, stations, or branches; these units reported more than
$145 million of revenue in fiscal year (FY) 2009. The nine units addressed in this report
reported approximately $21 million of revenue during this period.3

The OIG performs periodic financial risk assessments. Based on quarter 2, FY 2009
financial data in the Enterprise Data Warehouse (EDW), the OIG developed a Cost and
Controls Risk Model that ranks the Postal Service’s districts with respect to specific
financial risk indicators.4 We selected the Greater South Carolina District because
indicators in our model suggested the district was a high financial risk compared with
others around the country. May and June FY 2009 data ranked this district as the
second and seventh highest risk district, respectively, from a financial viewpoint.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether internal controls over retail and unit
stamp stock, cash management, customer account management (master trust), local
purchases, miscellaneous expenses and refunds were in place and effective at the
selected sites.

To accomplish this objective, we audited nine judgmentally selected units within the
Greater South Carolina District. We selected the following sites for audit based on high-
risk model rankings in the areas of disbursements and refunds, retail floor stock levels,
employee items, and financial adjustments.

       xxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxx

3
 Data obtained from the Standard Accounting for Retail system.
4
 The 12 risk indicators in our model are revenue, local purchases, refunds, miscellaneous expenses, nonlocal
purchases, clerk cash management, office cash management, employee related items, customer account
management, retail stamp stock management, overall unit stamp stock management, and contract postal units.




                                                         4
Greater South Carolina District                                                                  FF-AR-10-049
 Financial Risk Audit


       xxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxx

At each unit, we conducted the following tests for FY 2009:

       Examined accountability records and reviewed transactions generated for the
        October 2008 through June 2009 reporting periods related to financial accounting
        and reporting.

       Obtained the Point-of-Service Clerk Balance’s Report to review employee and unit
        cash balances as well as retail floor stock balances.

       Selected and reviewed high-dollar transactions for employee items, local
        disbursements, and refunds and traced authorizations to supporting
        documentation and certifications maintained at the units.

       Reviewed Master Trust Account Summary data from the Cost and Controls Risk
        Model for master trust to analyze inconsistencies between locally managed trust
        balances and financial balances in EDW.

       For financial differences, analyzed each unit’s Account Identifier Code (AIC) 247,
        Financial Differences Overage, and AIC 647, Financial Differences Shortage, by
        journal voucher (JV) number.5

       Specifically tested transactions related to banking differences and manually
        generated transactions6 posted to the accounting records because of their
        inherent risk for potential fraud or loss of funds.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to source
documents. We used Postal Service instructions, policies, and procedures as criteria to
evaluate internal controls and data reliability. We interviewed supervisors and
employees and observed operations at these judgmentally selected Postal Service sites.
We also interviewed the district finance manager to determine what procedures the
district had in place to track and monitor retail units’ compliance with accounting
procedures and compliance with key financial controls.

We conducted this performance audit from August through December 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
5
  JV numbers determine the source of the expense, and different JVs are used for expenses from different systems.
For example all JVs beginning with 415 originate from the Chesapeake Reconciliation System; all JV 411.0 entries
where the Reason Code is not 99 represent unit generated and transmitted expenses.
6
  Postal Service Form 1412, Daily Financial Report.




                                                         5
Greater South Carolina District                                                       FF-AR-10-049
 Financial Risk Audit


standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on October 29, 2009, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG issued the following financial audit reports for the Greater South Carolina
District within the past 3 years.

                                                                  Non-
                     Report        Final Report    Monetary     Monetary
 Report Title        Number            Date         Impact       Impact         Report Results
FY 2007           FF-AR-07-171    May 30, 2007         $4,894        $0    This report identified
Financial                                                                  internal control and
Installation                                                               compliance issues
Audit – xxxxx                                                              related to accountability
xxxxxxxxxx                                                                 examinations, inactive
xxxxxxxx–                                                                  trust accounts, employee
xxxxxxxxxx,                                                                items, closeout and bank
xx                                                                         deposit preparation
                                                                           procedures, postage
                                                                           validation imprinter
                                                                           adjustments, financial
                                                                           differences, Voyager
                                                                           card procedures, and
                                                                           key and lock
                                                                           examinations.
                                                                           Management agreed
                                                                           with the
                                                                           recommendations.
FY 2009           FF-AR-09-132    March 26, 2009          $0     $60,593   This report identified
Financial                                                                  internal control and
Installation                                                               compliance issues
Audit –                                                                    related to stamp, cash,
xxxxxxx                                                                    and money order
xxxxxxxxxx                                                                 accountability; financial
xxxxxxxxxx                                                                 accounting; and
xx                                                                         reporting and business
                                                                           mail acceptance.
                                                                           Management agreed
                                                                           with the
                                                                           recommendations.




                                                   6
Greater South Carolina District                                                    FF-AR-10-049
 Financial Risk Audit


                                                              Non-
                     Report       Final Report   Monetary   Monetary
 Report Title        Number           Date        Impact     Impact         Report Results
FY 2009           FF-AR-09-159    May 5, 2009         $0         $0    We did not note any
Financial                                                              conditions that materially
Installation                                                           affected the
Audit –                                                                reasonableness or
xxxxxxx                                                                fairness of the reported
xxxxxxxxx                                                              financial data.
xxxxxxxxxxx




                                                 7
Greater South Carolina District                                                                       FF-AR-10-049
 Financial Risk Audit


                                  APPENDIX B: DETAILED ANALYSIS

Management Oversight of Internal Controls Needs Improvement

We found internal control issues related to maintaining retail floor stock balances,
researching and documenting miscellaneous expenses (financial adjustments),
maintaining a detailed record or system-generated log for each financial adjustment, and
conducting accountability examinations over the unit cash reserve. These conditions
represent four of the 16 specific key internal controls we tested. For the remaining 12
controls tested,7 we noted no issues and attribute that to the recently implemented
district-wide monitoring of individual unit performance. Where we noted deficiencies,
local unit managers or supervisors generally stated they needed to provide more
oversight to those areas.

Retail Floor Stock Limits

Retail floor stock levels at seven of the nine sites we visited exceeded limits by
approximately $297,000.8 There were a variety of reasons unit managers or supervisors
cited for exceeding the retail floor stock limit, such as other work-related duties
preventing them from providing sufficient oversight to maintaining the limits. For
example,

        The supervisor at both xxxxxxxx post offices said he traveled between three
         offices and it was difficult to be available when clerks needed stamps replenished.
         Consequently, he kept the floor stock high.

        The manager at the xxxxxxxxxxxxxxxxxxxxxxxx gave a similar reason and stated
         they kept excess stock on the floor to keep from running out of stamps to sell.

        The xxxxxxxxxxxxxxxxxxxxxxxxxxxx was in the process of filling a job vacancy,
         and the manager who oversaw that unit also had another unit and delivery section
         to manage. As a result, oversight at this station was a challenge.

Handbook F-101 (F-101), Field Accounting Procedures, Section 14, limits the dollar
amount of stamps that units can keep as part of their retail floor stock. The limit is based
on a formula of postage sales using sales data from the same period last year.
Maintaining stock within these limits is important to control or reduce the risk of loss
within Segmented Inventory Accountability (SIA) offices,9 work hours associated with
retail floor stock counts, and the amount of excess stock returned for destruction. To


7
  Those controls are listed in Appendix C along with the four controls where we noted deficiencies.
8
  The allowable threshold for these units’ retail floor stock was $252,000.
9
  SIA is a financial concept where offices maintain a unit reserve stock and a shared retail floor stock from which
employees sell stamps to customers.




                                                            8
Greater South Carolina District                                                                     FF-AR-10-049
 Financial Risk Audit


correct this deficiency, units must reduce retail floor stock to the limit established by
Postal Service policy.

See Appendix C for information on the specific units where this condition existed. See
Appendix D for the nonmonetary impact associated with excess floor stock.

Monitoring, Documenting, and Clearing Miscellaneous Expenses (Financial Adjustments)

Management at seven units did not always research discrepancies and ensure timely
clearance. In addition, management did not maintain detailed records and a log for each
miscellaneous expense entry and document their research and support corrective
actions (refer to Appendix C for details). Turnover in supervisory positions and time
spent on other duties caused inadequate oversight of this control. On a positive note,
units had either just started keeping logs or took corrective actions during our audit. For
those units that were not sufficiently researching and clearing financial adjustments, unit
managers said that other priorities prevented them from providing adequate oversight
over financial differences.

Postal Service policy10 establishes procedures for creating, offsetting, and documenting
miscellaneous expenses. The policy and procedures provide details on the use of
AIC 247 and AIC 647 and describes the procedures for creating, offsetting, and
documenting differences in financial transactions. Unresolved financial adjustments
increase the risk the Postal Service could lose cash, accountable items, and revenue
without detection and misstate financial records. Units must maintain a log of financial
adjustments to ensure timely offsets and keep detailed records to support expense status
or date of offsets.

Accountability Examinations for Unit Reserve Cash

Managers did not conduct counts of unit cash reserve11 at four units as required.
(Refer to Appendix C for details on these four sites.) Except for the Spartanburg
Post Office, which counted the cash reserve once in July 2009, none of these four
offices had conducted counts of the unit cash reserve in the past 12 months.

F-101, Section 13, states that postmasters, managers, or supervisors are
responsible for managing all cash credits assigned and must ensure the timely
performance of all counts. Local managers stated that they generally did not
conduct counts of the unit reserve cash as frequently as required because of
inadequate oversight on their part. They also cited other work-related duties, such
as supervising personnel or overseeing delivery operations, taking priority as a
reason. The Postal Service has an increased risk that losses could occur and go

10
  F-101, Section 8.
11
  A unit cash reserve may be established to provide associates a resource for exchanging large bills for rolled coins
and smaller denomination currency.




                                                           9
Greater South Carolina District                                           FF-AR-10-049
 Financial Risk Audit


undetected and that financial records could be misstated when units do not follow
prescribed accountability procedures. To obtain better controls over examination of
the unit cash reserve, units must perform and document all accountability
examinations at proper frequencies as established by Postal Service policy.




                                           10
Greater South Carolina District                                                                                                                                                                                FF-AR-10-049
 Financial Risk Audit


                                                           APPENDIX C: RESULTS OF INTERNAL CONTROL TESTING




                                                                 xxxxxxxxxxxxxx
                                  xxxxxxxxxxxxx


                                                  xxxxxxxxxxxx




                                                                                                                            xxxxxxxxxxxx



                                                                                                                                           xxxxxxxxxxxx
                                                                                                xxxxxxxxxxx 
                                  xxxxxxxxxxx




                                                                 xxxxxxxxxxx

                                                                                  xxxxxxxxxxx
                                                                                  xxxxxxxxxxx




                                                                                                                            xxxxxxxxxxx
                                                  xxxxxxxxxx




                                                                                                               xxxxxxxxxx




                                                                                                                                           xxxxxxxxxx
                                                                                                               xxxxxxxxx-
                                                                                                xxxxxxxxxxx




                                                                                                                                                          xxxxxxxxx
                                                                                                                                                          xxxxxxxx
                                                                                                                                                          xxxxxxx
                                                                                                               xxxxxx




                                                                                                                                           xxxxxx
     Internal Control Tested12                                                                                                                                                     Specific Actions Required
                                                                                            Cash and Stamp Accountability Controls
Retail floor stock was
maintained within limits.                                                                                                                                             Reduce and maintain retail floor stock to the limit
                                 No               No             No               No            No             Yes          Yes            No             No
                                                                                                                                                                           established by Postal Service policy.

Individual retail associate
(RA) cash retained was
maintained within limits.        Yes              Yes            Yes              Yes           Yes            Yes          Yes            Yes            Yes                          Not Applicable


Unit cash retained was
maintained within limits.        Yes              Yes            Yes              No            No             Yes          Yes            Yes            Yes                          Not Applicable

Unit reserve stock
examinations were
performed at required            Yes              Yes            Yes              Yes           Yes            Yes          Yes            No             Yes                          Not Applicable
frequency.

Retail floor stock
examinations were
performed at required            Yes              Yes            Yes              Yes           Yes            Yes          Yes            Yes            Yes                          Not Applicable
frequency.
RA cash examinations
were performed at the
required frequency.              Yes              Yes            Yes              Yes           Yes            Yes          Yes            Yes            Yes                          Not Applicable




12
  Some of the controls tested received a “No” response but were not reportable findings because most instances of noncompliance occurred during October – April FY 2009,
and corrective actions were in place at the time of our audit. We did not provide a specific action required when we found no significant instances of noncompliance.

                                                                                                                                   11
Greater South Carolina District                                                                                                                                                                                                FF-AR-10-049
 Financial Risk Audit


                                          APPENDIX C: RESULTS OF INTERNAL CONTROL TESTING (CONTINUED)




                                                           xxxxxxxxxxxxxxx




                                                                                                xxxxxxxxxxxxxxt
                                          Xxxxxxxxxxxxxx




                                                           xxxxxxxxxxxxxx

                                                                             xxxxxxxxxxxxxx




                                                                                                                  xxxxxxxxxxxxxx




                                                                                                                                   xxxxxxxxxxxxxx
                          Xxxxxxxxxxxxx




                                                                                                                                   xxxxxxxxxxxxx




                                                                                                                                                    xxxxxxxxxxxxx
                          xxxxxxxxxxxx


                                          xxxxxxxxxxxx




                                                                                                                  xxxxxxxxxxx




                                                                                                                                                    xxxxxxxxxx



                                                                                                                                                                    Xxxxxxxxx
                                                                                                                                                                     xxxxxxxx
                                                                                                                                                                    xxxxxxx
                                                                             xxxxxx


                                                                                                xxxxxx




                                                                                                                                                    xxxxxx
Internal Control Tested                                                                                                                                                                           Specific Actions Required
Unit cash reserve
examinations                                                                                                                                                                    Perform and document unit cash reserve examinations at
                          Yes             Yes              No                No                Yes                Yes              No               Yes             No
performed at                                                                                                                                                                                    proper frequencies.
required frequency.
                                                                                              Financial Accounting and Reporting of Transactions
Units researched          Yes             No               Yes               Yes                Yes               No               No               Yes             Yes
                                                                                                                                                                                   Monitor and resolve financial differences and make
financial differences
                                                                                                                                                                                adjusting entries as appropriate in accordance with Postal
and ensured
                                                                                                                                                                                                      Service policy.
clearance.
Units maintained a        Yes             Yes              No                Yes                No                No               No               No              No
detailed record or
system-generated log                                                                                                                                                            Log financial differences to identify status or date of offset.
for each AIC 247 and
AIC 647 entry.
Units with trust          Yes             Yes              Yes               Yes                Yes               Yes              Yes              Yes             Yes
accounts reconciled
their customer trust
                                                                                                                                                                                                       Not Applicable
balances with
Accounting Data Mart
balances.
Units maintained a list   Yes             Yes              Yes               Yes                No                Yes              Yes              Yes             Yes
and details of all
                                                                                                                                                                                                       Not Applicable
pending employee
items to be resolved.




                                                                                                                                                    12
Greater South Carolina District                                                                                                                                                                     FF-AR-10-049
 Financial Risk Audit


                                        APPENDIX C: RESULTS OF INTERNAL CONTROL TESTING (CONTINUED)




                                                       xxxxxxxxxxxxx
                                        xxxxxxxxxxxx




                                                       xxxxxxxxxxxx




                                                                                                                  xxxxxxxxxxxx
                                                                                     xxxxxxxxxxx 
                          xxxxxxxxxxx
                          xxxxxxxxxxx


                                        xxxxxxxxxxx




                                                                       xxxxxxxxxxx
                                                                       xxxxxxxxxxx




                                                                                                                  xxxxxxxxxxx




                                                                                                                                 xxxxxxxxxxx
                                                                                                     xxxxxxxxxx
                                                                                                     xxxxxxxxxx




                                                                                                                                 xxxxxxxxxx
                                                                                     xxxxxxxxxxx




                                                                                                                                               xxxxxxxxx
                                                                                                                                               xxxxxxxx
                                                                                                                                               xxxxxxx
                                                                                                     xxxxxx




                                                                                                                                 xxxxxx
Internal Control
Tested                                                                                                                                                     Specific Actions Required
                                                                                                    Local Disbursements and Refunds
Units recorded
local payments
in correct
                         Yes            No             Yes             Yes           No             Yes           Yes             Yes          Yes                                 Not Applicable
account and
kept proof of
payment.
Units used preferred
method for paying        Yes            Yes            Yes             Yes           Yes            Yes           Yes             Yes          Yes                                 Not Applicable
recurring expenses.
Units limited use of
no-fee money orders
for expenses not
                         Yes            Yes            Yes             Yes           Yes            Yes           Yes             Yes          Yes                                 Not Applicable
exceeding $500 for
emergency one-time
payments.
Refunds were
completed and
submitted during
                         Yes            Yes            Yes             Yes           Yes            No            No              Yes          Yes                                 Not Applicable
closeout with
supporting
documentation.
Witness’s signature
was documented for
                         Yes            Yes            Yes             No            Yes            Yes           Yes             Yes          No                                  Not Applicable
refunded
transactions.




                                                                                                                                 13
Greater South Carolina District                                       FF-AR-10-049
 Financial Risk Audit




                                      APPENDIX D:
                              NONMONETARY IMPACT SUMMARY

                                                     Dollar Amount
                   Excess Retail Floor Stock           of Excess
                   xxxxxxxxxxxxxxxxxxxxxxxxx               $26,413

                   xxxxxxxxxxxxxxxxxxxxxxxxxx                25,138

                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            82,265

                   xxxxxxxxxxxxxxxxxxxxxxxx                  20,005

                   xxxxxxxxxxxxxxxxxxxxxxxx                  43,808

                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx           27,208

                   xxxxxxxxxxxxxxxxxxxxxxxxxx                71,753

                   Total                                  $296,590




                                               14
Greater South Carolina District                             FF-AR-10-049
 Financial Risk Audit




                        APPENDIX E: MANAGEMENT’S COMMENTS




                                       15
Greater South Carolina District        FF-AR-10-049
 Financial Risk Audit




                                  16
Greater South Carolina District        FF-AR-10-049
 Financial Risk Audit




                                  17
Greater South Carolina District        FF-AR-10-049
 Financial Risk Audit




                                  18
Greater South Carolina District        FF-AR-10-049
 Financial Risk Audit




                                  19
Greater South Carolina District        FF-AR-10-049
 Financial Risk Audit




                                  20
Greater South Carolina District        FF-AR-10-049
 Financial Risk Audit




                                  21
